                             NATIONAL SCIENCE FOUNEATlGN
                                  4201 WILSON BOLILEVARD
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTORGENERAL




 --   -   -
          .    .   -                        .-.   - .-- -.- -.--..-..-.
                                                                      . .. .-   -   .-   -.   -   -- .   .
                                                                                                         .. .
                                                                                                            . . ..--.
                                                                                                                    .   - ..... ... ..   .
                                                                                                                                         ....   .   .. .   .... -

  DATE:                 October 16, 1995

  TO:                   Case # I950300 11

  FROM:

  RE:



  On February 17, 1995, our office received an allegation from an NSF program officer that



  We obtained account summaries from th-and          reviewed its expenditures under the
  NSF grant (including those from the income account). As a follow-up, we conducted
  interviews with the cognizan-        account representative, project site managers, and
  participants. We determined that the fbnds were spent in accordance with the award
  conditions.

  In addition, we obtained and reviewed account summaries from th-           project site in
               and we interviewed the project site manager. Our review of these documents
  also concluded that this fbnding was not misspent.

  Due to lack of substantial evidence, fbrther investigation at this time is not warranted.
  This case is close.
